<html>
<title> - WESTERN HEMISPHERE DRUG POLICY COMMISSION ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
         WESTERN HEMISPHERE DRUG POLICY COMMISSION ACT OF 2009

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2134

                               __________

                            OCTOBER 15, 2009

                               __________

                           Serial No. 111-47

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
52-854                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a9ced9c6e9cadcdaddc1ccc5d987cac6c487">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                   ELIOT L. ENGEL, New York, Chairman
GREGORY W. MEEKS, New York           CONNIE MACK, Florida
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GENE GREEN, Texas                    CHRISTOPHER H. SMITH, New Jersey
GABRIELLE GIFFORDS, Arizona          DAN BURTON, Indiana
ENI F. H. FALEOMAVAEGA, American     ELTON GALLEGLY, California
    Samoa                            RON PAUL, Texas
DONALD M. PAYNE, New Jersey          JEFF FORTENBERRY, Nebraska
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
BARBARA LEE, California
JOSEPH CROWLEY, New York
RON KLEIN, Florida
              Jason Steinbaum, Subcommittee Staff Director
        Eric Jacobstein, Subcommittee Professional Staff Member
           Fred Ratliff, Republican Professional Staff Member
                  Julie Schoenthaler, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 2134, To establish the Western Hemisphere Drug Policy 
  Commission.....................................................     2
  Amendment in the Nature of a Substitute to H.R. 2134 offered by 
    the Honorable Eliot L. Engel, a Representative in Congress 
    from the State of New York, and Chairman, Subcommittee on the 
    Western Hemisphere...........................................    13

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    28
Markup minutes...................................................    29
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    30


         WESTERN HEMISPHERE DRUG POLICY COMMISSION ACT OF 2009

                              ----------                              


                       THURSDAY, OCTOBER 15, 2009

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:17 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot L. Engel 
(chairman of the subcommittee) presiding.
    Mr. Engel. The subcommittee will come to order.
    Pursuant to notice, I now call up H.R. 2134, the Western 
Hemisphere Drug Policy Commission Act of 2009. Without 
objection, the amendment in the nature of a substitute before 
the members will be considered as base text for purposes of 
amendment. It will be considered as read, and it will be open 
for amendment at any point.
    [The information referred to follows:]<greek-l>H.R. 
2134 deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>NOS to H.R. 2134 deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. I recognize myself for 5 minutes to explain the 
amendment in the nature of a substitute.
    Billions of U.S. taxpayer dollars have been spent over the 
years to fight the drug trade in Latin America and the 
Caribbean. In spite of our efforts, drug use in the United 
States has increased. According to the Brookings Institution, 
since the peak of the heroin and cocaine epidemics of the mid-
1980s, consumption rates for these narcotics have remained more 
or less stable at approximately 1 million heroin users and 3.3 
million cocaine users. At the same time, methamphetamine use 
has spread, resulting in a combined prevalence rate of more 
than 6 million users.
    Clearly, the time has come to reexamine our 
counternarcotics efforts here at home and throughout the 
Americas. H.R. 2134 does just that by creating an independent 
commission to evaluate U.S. policies and programs aimed at 
reducing illicit drug supply in the Americas and the demand for 
these drugs here at home. This bipartisan bill will assess all 
aspects of the illegal drug trade, including prevention and 
treatment programs in the United States.
    The Western Hemisphere Drug Policy Commission will be 
charged with conducting a comprehensive review of U.S. illicit 
drug supply and demand reduction policies. The commission will 
be required to submit recommendations on future U.S. drug 
policy to Congress, the Secretary of State, the Director of the 
White House Office of National Drug Control Policy, and the 
Secretary of Health and Human Services.
    To tackle our Nation's horrific drug problem once and for 
all, we must have a better sense of what works and what does 
not work. Our partners in the Americas who have worked closely 
with us in fighting the drug war for years and the citizens of 
our great country who deal every day with illegal drugs on 
their streets deserve no less.
    I urge all of my colleagues to support this legislation; 
and I now turn to the ranking member, Mr. Mack, to express his 
views on this legislation.
    Mr. Mack. Thank you, Mr. Chairman; and I want to thank you 
for your leadership for introducing H.R. 2134. The Western 
Hemisphere Drug Policy Commission Act of 2009 is a positive 
step toward evaluating U.S. policy.
    I also want to thank Chairman Engel and his staff for 
working in a bipartisan manner with my office and Republican 
members of the subcommittee. Chairman Engel worked closely to 
ensure that the concerns and requests of Republican Members 
were adequately addressed.
    As we mark up H.R. 2134 and continue on to the hearing on 
U.S. Drug Policy in the Americas, I want to emphasize my belief 
that the best way to attack the problem of illicit drugs is to 
take an all-encompassing approach to the problem. Some will 
focus on treatment or better education. Others will focus on 
supply and the law enforcement aspect of the problem. We must 
attack the problem from all angles and all perspectives.
    Thank you, Mr. Chairman, for your leadership and for your 
hard work; and I want to urge my colleagues to support the 
Western Hemisphere Drug Policy Commission Act of 2009 and to 
vote yes on the chairman's amendment.
    Mr. Engel. Well, thank you very much, Mr. Mack, and thank 
you for your cooperation and for your input into this bill. It 
is very much appreciated by me and by all of us. I thank you.
    Are there any amendments?
    Any members want to make a statement?
    Mr. Smith. Mr. Chairman?
    Mr. Engel. Yes, Mr. Smith.
    Mr. Smith. I would ask that my full statement be made part 
of the record, and I want to take a moment to highlight the 
connection between organized crime that is flourishing on drug 
money and human trafficking, particularly sex trafficking of 
women and girls.
    I do want to thank you and Mr. Mack for including language 
that shows the nexus between drug trafficking and sex 
trafficking. We know that one of the ways that women are 
exploited in trafficking includes getting them hooked on 
narcotics and other dangerous drugs, so that even when they are 
liberated many of these women go back to traffickers because of 
their addiction. It is also a way of two commodities being 
sold, reducing the woman to a commodity as well as obviously 
the commodity of drugs.
    So I appreciate you including that language in the bill. It 
is a great bill, and I hope all members support it.
    I yield back.
    Mr. Engel. Thank you, Mr. Smith.
    Ms. Lee.
    Ms. Lee. Thank you very much, Chairman Engel, and also 
Ranking Member Mack. Thank you for convening this hearing and 
also for this bill.
    Of course, I am very pleased that, for once, we are 
beginning to look at both the supply and demand for illicit 
drugs. Many of our communities have felt the brunt, 
unfortunately, of drug addiction and many of the difficulties 
that ensue as a result of drug addiction and the damage that 
has been caused to communities and to individuals and society.
    Also, the commission, I am very pleased to note, is 
required to carry out, investigate, and comprehensively look at 
best practices around the world that target specifically and 
directly the societal devastation caused by illicit drug 
markets and drug use, from the spread of infectious diseases 
like HIV and AIDS to the surge of crime and violence. So this 
is one of the first times that I have seen the establishment of 
any drug policy commission that really is going to look at this 
in a comprehensive way to accomplish what we all want to 
accomplish, and that is really wiping illicit drugs, from 
cocaine to heroin, from the face of the earth.
    So thank you again, Mr. Chairman, and thank you for the 
bill.
    Mr. Engel. Thank you, Ms. Lee.
    If no other member wishes----
    Mr. Paul. Mr. Chairman?
    Mr. Engel. Yes, Mr. Paul.
    Mr. Paul. Thank you, Mr. Chairman. I have just a brief 
comment.
    I think it is about time we looked at this subject. I am 
very glad you are doing this. I think it is a start.
    We are dealing with the Western Hemisphere, but I think the 
overall drug policy in this country, the drug war should be 
looked at. But, as a physician, I wanted to particularly 
emphasize the importance of looking at people who are addicted 
to drugs as being involved with a disease rather than 
criminals. Every time we criminalize all this activity we 
compound our problem. So I am delighted that you are looking at 
this problem and studying it, and I hope the commission will 
pay attention to the fact that there are different ways of 
treating people who are addicted.
    And I yield back.
    Mr. Engel. Thank you, Mr. Paul.
    If there are no further comments, the question occurs on 
the amendment in the nature of a substitute. All in favor will 
vote aye. Aye. All opposed will vote no.
    The ayes have it, and the amendment is agreed to.
    The chairman is prepared to receive a motion.
    Mr. Sires?
    Mr. Sires. I move the favorable recommendation of H.R. 
2134, as amended, to the full committee.
    Mr. Engel. The question occurs on the motion of the 
gentleman to report H.R. 2134, as amended, favorably to the 
full committee. All in favor will say aye. Aye. All opposed say 
no.
    The ayes have it, and the motion is adopted.
    Without objection, the bill will be reported as a single 
amendment in the nature of a substitute incorporating the 
amendments adopted by the committee, and the staff is directed 
to make any technical and conforming amendments.
    [Whereupon, at 2:26 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Smith statement deg.
                               __________

      Prepared Statement of the Honorable Christopher H. Smith, a 
        Representative in Congress from the State of New Jersey

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
